U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




National Telecommunications
             and Information
              Administration

    Public Safety Interoperable
Communications Grant Program:
   Grantees Appear Unlikely to
   Finish Projects Within Short
          Funding Time Frame
              Final Audit Report No. DEN-19003 No.
                                        March 2009

FOR PUBLIC RELEASE


                          Denver Regional Office of Audits
                                   Report In Brief
                                              U.S. Department of Commerce Office of Inspector General
                                                                    March 2009



Why We Did this Review National Telecommunications & Information Administration
The Implementing Recommen-
dations of the 9/11 Commission         Public Safety Interoperable Communications (PSIC) Grant
Act of 2007 requires the Com-          Program: Grantees Appear Unlikely to Finish Projects Within
merce Office of Inspector Gen-
eral to annually assess NTIA’s         Short Funding Time Frame (DEN-19003)
management of the program.
This is our first review in fulfill-   What We Found
ment of the act’s requirement,
for the year ended September           Overall, we found that NTIA’s management of the PSIC program has complied
30, 2008. We focused on whether        with the statutory requirements of the Digital Television Transition and Public
NTIA efficiently managed and           Safety Act and the Call Home Act. However, we identified an issue regarding the
met statutory requirements for
the following grant administra-
                                       program’s effectiveness that we believe warrants immediate attention from the
tion activities: formula alloca-       Department and Congress: most grantees have made little progress in actually
tions, grant awards, statewide         implementing their projects, and may not be able to meet the September 30, 2010,
communications interoperability        statutory deadline for completing them.
plans, and grantees’ applications
and investment justifications.         Unique Award Process Shortened Time for Implementing Projects. To
                                       meet the September 30, 2007, deadline for awarding grants, NTIA made awards
Background                             before grantees had submitted their required interoperability plans and spending
                                       justifications. This process differed from many other Commerce grants programs,
The Digital Television Transi-         which award grants competitively based on the merit of an applicant’s proposal.
tion and Public Safety Act of
2005 authorized NTIA, in con-          As a result, many PSIC recipients spent the first year of the grant period devel-
sultation with the Department          oping required plans and justifications, and awaiting approvals and subsequent
of Homeland Security (DHS), to         release of funds. They therefore did not have the full 3-year award period for
implement the PSIC program—a           acquiring and deploying interoperable communications equipment.
$1 billion one-time, formula-
based matching grant program           As of February 28, 2009—17 months into the 36-month grant period—less than 7
intended to enable public safety       percent ($66.3 million) in PSIC grant funds had been drawn down. We surveyed
agencies to establish interoper-
able emergency communications          grantees in the fall of 2008 regarding the status of their projects. Only 1 of the 22
systems. The Call Home Act of          grantees responding stated that it planned to acquire most of its interoperable
2006 directed NTIA to award            communications equipment within the next 6 months. Eight others stated they
grants by September 30, 2007,          are in the early stages of planning their acquisitions. The remaining 13 stated
and the Digital TV Act set a
deadline of September 30, 2010,        they will begin acquiring equipment in FY 2009 or early FY 2010.
for grant funds to be expended.        Given all that must follow the purchase of equipment—installation, operational
NTIA and DHS signed a memo-
randum of understanding to
                                       testing, and training, at a minimum—grantees who are still in the planning or
administer the PSIC program,           acquisition stage as late as FY 2010 face the very real possibility of arriving at
with DHS’ Federal Emergency            the program’s September 30, 2010, deadline with partially completed projects but
Management Agency Grants               without funding to finish them.
Office responsible for issuing and
overseeing the grants. Grants
were issued for the period Octo-       What We Recommended
ber 1, 2007, through September
30, 2010, to all 50 states, the        To assure that the benefits of the Public Safety Interoperable Communications
District of Columbia, and the          Grant Program are achieved, we recommended that the Assistant Secretary for
five U.S. territories (Puerto
Rico, American Samoa, Guam,
                                       Communications and Information
Northern Mariana Islands, and              • promptly identify those grantees at high risk of not meeting the statu-	
the U.S. Virgin Islands).                	   tory deadline for completing their projects, provide the technical assistance 	
Grant terms and conditions cap           	   they need to accelerate the process, and carefully monitor their progress; 	
the federal share for program            	   and
acquisition and deployment costs           • keep Congress informed of the PSIC program’s status in achieving its
at 80 percent. Grantees must
cover the remaining 20 percent.
                                         	   objectives. If necessary, work with Congress to extend the deadline, on a 	
                                         	   case-by-case basis, for grantees to expend grant proceeds.
March 31, 2009


MEMORANDUM FOR:            Anna Gomez
                           Deputy Assistant Secretary for Communications and
                           Information Administration


FROM:                      Dr. Brett M. Baker
                           Assistant Inspector General for Audit

SUBJECT:                   Public Safety Interoperable Communications Grant
                           Program: Grantees Appear Unlikely to Finish Projects
                           Within Short Funding Time Frame
                           (Final Audit Report No. DEN-19003)

This is our final audit report on the Office of Inspector General's first annual
assessment of NTIA’s administration of the Public Safety Interoperable
Communications (PSIC) grant program, as required by Implementing
Recommendations of the 9/11 Commission Act of 2007.

In short, we found that NTIA met statutory requirements for managing PSIC
during the program’s first year. But most grantees had made little progress in
actually implementing their projects and are at risk of not meeting the mandated
deadline for completion. We recommended that NTIA promptly provide technical
assistance to grantees to accelerate the process, carefully monitor their progress,
keep Congress informed of the PSIC program's status, and if necessary seek to
extend the deadline for expending grant proceeds.

In a letter dated March 2, 2009, you indicated that you have set aside
administrative funds to provide such technical assistance and plan to periodically
update Congress regarding the PSIC program’s status. Our report acknowledges
these intentions, and we have included your letter it in its entirety as an appendix.

Department Administrative Order 213-5 requires that you provide us with an
action plan detailing the steps you have taken and intend to take in response to our
recommendations. Please submit your plan to me by May 29, 2009.
If you would like to discuss the contents of the final report, please do not hesitate to
contact me at (202) 482-2600, or John Bunting, our Denver regional inspector
general, at (303) 312-7663. Please accept our thanks for the courtesies NTIA
extended to us during our audit.


cc: Kathy Smith, NTIA chief counsel
    Milton Brown, audit liaison
    Laura Pettus, PSIC program manager
U.S. Department of Commerce                                                                        Final Report DEN-19003
Office of Inspector General                                                                                    March 2009


                                                      CONTENTS


Introduction ........................................................................................................ 1


Findings and Recommendations ........................................................................ 3


   I. Grantees May Not Be Able to Finish Projects Within Short Funding
          Time Frame ..............................................................................................3


   II. NTIA Is Meeting Requirements in Managing the PSIC Program ............6


Appendix A: Objectives, Scope, and Methodology ........................................... 13


Appendix B: Agency Response ......................................................................... 15


Appendix C: NTIA PSIC Chronology ............................................................... 19


Appendix D: NTIA PSIC Statutes.................................................................... 22
U.S. Department of Commerce                                      Final Report DEN-19003
Office of Inspector General                                                  March 2009


                                     Introduction

The Digital Television Transition and Public Safety Act of 2005 1 authorized the
National Telecommunications and Information Administration (NTIA), in
consultation with the Department of Homeland Security (DHS), to implement the
Public Safety Interoperable Communications (PSIC) grant program—a $1 billion
one-time, formula-based matching grant program for public safety agencies to
improve interoperable communications systems.

The Call Home Act of 2006 2 directed NTIA to make the grant awards by September
30, 2007, and the Digital Television Transition and Public Safety Act of 2005 set a
deadline of September 30, 2010, for grant funds to be expended. NTIA and DHS
signed a memorandum of understanding in February 2007 to administer the PSIC
program. DHS’ Federal Emergency Management Agency (FEMA) Grants Office had
the responsibility for issuing the NTIA PSIC grants and providing NTIA with grant
administration reporting and oversight. The program made available $968,385,000
in grants for the period October 1, 2007, through September 30, 2010, to the 56
grantees: 50 states, the District of Columbia, and the five U.S. territories (Puerto
Rico, American Samoa, Guam, Northern Mariana Islands, and the U.S. Virgin
Islands).

As required by the program, the governor of each state and territory designated a
state administrative agency to apply and administer PSIC funds. Administrative
agencies are required to pass through no less than 80 percent of the total award
amount to local or tribal governments or authorized nongovernmental public safety
agencies, unless the local entity opts, via written agreement, to have the state
agency retain and spend the funds on its behalf. Grantees must meet a 20 percent
nonfederal match for acquisitions and deployment.

The grants were originally to fund the purchase and deployment of communications
equipment, as well as training for system users. The Implementing
Recommendations of the 9/11 Commission Act of 2007 3 later expanded allowable
costs to include planning and coordination. The act further required the Commerce
Office of Inspector General to monitor two aspects of the program annually
beginning in 2008 through 2011: first, we are to assess NTIA’s management of the
PSIC program; second, we are to conduct financial audits of a representative sample
of grant recipients, for a total of 25 grantees over the 4-year period.

This report details our first assessment of NTIA’s grants management, for the year
ended September 30, 2008. This initial review focused on whether NTIA efficiently
managed and met statutory requirements for the following grant administration
activities: formula allocations, grant awards, statewide communications

1
  Public Law 109-171, Sec. 3006
2
  Public Law 109-459, Sec. 4.
3
  Public Law 110-53, Sec.2201.
                                         1
U.S. Department of Commerce                                       Final Report DEN-19003
Office of Inspector General                                                   March 2009


interoperability plans, and grantees’ applications and investment justifications.
(See appendix A for a full discussion of our objectives, scope, and methodology.)

Overall, we found that NTIA, working with DHS/FEMA grants office, has complied
with the statutory requirements of the Digital Television Transition and Public
Safety Act of 2005, and the Call Home Act of 2006 in managing the program and in
issuing the 56 public safety interoperable communications grants: it has met
deadlines for making grant awards; consistently applied the allocations formula in
determining award amounts; implemented a rigorous review process for evaluating
and approving grantee interoperable communications plans and investment
justifications; and established required grant terms and conditions. We therefore
had no recommendations on NTIA’s management of the grants.

Apart from NTIA’s management, our analysis of program data identified an issue
about program effectiveness that we believe warrants close and immediate
attention from the Department and Congress: most grantees have made little
progress in actually implementing their projects, and much remains to be done
within the short funding time frame that remains for the PSIC program.
Consequently, grantees may not be able to finish their projects by the September
30, 2010, deadline.




                                          2
U.S. Department of Commerce                                                        Final Report DEN-19003
Office of Inspector General                                                                    March 2009


                                Findings and Recommendations

I. Grantees May Not Be Able to Finish Projects Within Short Funding Time
   Frame

The unique structure of the PSIC grant award process has reduced time available
for project implementation. To meet the Call Home Act’s September 30, 2007,
deadline for making grant awards, NTIA awarded PSIC grants before grantees
submitted DHS-required statewide comprehensive interoperability plans and NTIA
PSIC investment justifications. This was unlike many other Commerce grants
programs, which make awards competitively, based on the merit of a grant
applicant’s proposal. As a result, many recipients have spent the first year of the 3-
year grant period developing DHS-required plans and NTIA-required investment
justifications, and awaiting NTIA and DHS approvals before release of funding.
DHS approved all state communications interoperability plans in March and April
2008; and NTIA had approved all but five states’ investment justifications and
individual investments as of September 30, 2008. Grantees therefore will not have
the full benefit of the 3-year grant award period for acquiring and deploying
interoperable communications equipment to improve their statewide networks.

As of September 30, 2008, less than 1.5 percent, $11.3 million of the $968 million in
PSIC grant funds, had been drawn down (table 1). One state, Louisiana, drew down
$6.3 million, which accounted for more than half the amount drawn down. As of
February 28, 2009—17 months into the 36-month grant period—less than 7.0
percent or $66.3 million in PSIC grant funds had been drawn down.




                                                 Table 1
                         Number of States          Cash Drawdowns
                                                   As of 9-30-08

                                 25                 $0
                                 18                 $ 1 to $100,000
                                 12                 $100,001 to $750,000
                                  1                 $750,001+

                                 56                 $11,343,119

                        Source: Cash drawdown reports, U.S. Department of
                        Homeland Security, Office of Policy and Program Analysis




                                                    3
U.S. Department of Commerce                                                                  Final Report DEN-19003
Office of Inspector General                                                                              March 2009


In September and October
2008, we contacted 23
grantees (table 2), and
received responses from 19       Table 2. PSIC Grantee Allocations, by Size of Grant
of the 20 receiving
the largest grants and 3      California*                 $94,034,510       Nevada*                      12,042,417
others with large cash
                              Texas*                       65,069,247       District of Columbia         11,857,972
drawdowns. Only 1 of
                              New York*                    60,734,783       Oklahoma                     11,684,183
the 22 grantees
                              Florida*                     42,888,266       Arkansas*                    11,169,402
responding stated that it
                              Illinois*                    36,414,263       Mississippi                  10,989,345
planned to acquire most
                              Pennsylvania*                34,190,555       Iowa                         10,935,974
of its interoperable
                              New Jersey*                  30,806,646       Kansas                       10,667,169
communications
                              Ohio*                        29,377,337       Utah                         10,353,261
equipment within the
                              Georgia*                     25,311,354       Puerto Rico                   9,590,025
next 6 months. Eight
                              Virginia*                    25,012,521       Delaware                      8,196,842
others stated they were
                              Michigan*                    25,039,781       Nebraska                      8,582,108
in the early stages of
                              Maryland*                    22,934,593       West Virginia                 8,429,484
planning their
                              North Carolina*              22,130,199       New Mexico                    8,288,725
acquisitions.
                              Massachusetts*               21,191,988       Hawaii                        8,069,879
                              Louisiana*                   19,672,287       Maine                         7,567,579
The remaining 13 stated
                              Washington*                  19,180,347       Rhode Island                  7,365,694
they would begin
                              Indiana*                     18,291,735       Idaho                         7,289,795
acquiring their
                              Arizona*                     17,713,050       Alaska                        7,250,345
interoperable
                              Tennessee*                   17,540,752       North Dakota                  7,052,490
communications
                              Missouri*                    17,465,576       South Dakota                  6,549,691
equipment in FY 2009 or
early FY 2010. Given all      Kentucky                     15,405,625       Montana                       6,549,685

that must follow the          Wisconsin                    15,367,216       New Hampshire                 5,966,760

purchase of equipment—        Colorado                     14,336,638       Wyoming                       5,952,187

installation, operational     Minnesota                    14,262,071       Vermont                       4,476,761

testing, and training, at     Alabama*                     13,585,399       Guam                          2,600,678

a minimum—grantees            South Carolina               13,499,308       U.S. Virgin Islands             856,907
                                                                            Northern Mariana
who are still in the          Connecticut                  12,999,879       Islands                         719,236
planning or acquisition       Oregon                       12,182,532       American Samoa                  691,948
stage as late as FY 2010                                                    Total                      $968,385,000
                               *Contacted by OIG
face the very real             Source: www.ntia.doc.gov/psic/awardslist.html (OIG ranking)
possibility of arriving at
the program’s September
30, 2010, deadline with
partially completed
projects but without
funding to finish them.




                                                   4
U.S. Department of Commerce                                                      Final Report DEN-19003
Office of Inspector General                                                                  March 2009


The track records of similar grant programs suggest that PSIC’s time frame would
present risks even if grantees had the full 3 years to acquire and deploy equipment. The
Government Accountability Office (GAO) found that spending at the local and state
levels in similar DHS programs was slowed by state and local legal and procurement
requirements, which in some cases added months to the purchasing process. 4 For
example, GAO testified before the House Subcommittee on Homeland Security in March
2008 that obligating DHS emergency preparedness grant dollars at the state level has
historically taken up to 5 years: from fiscal years 2002 to 2007, DHS has made $19.6
billion available to the states in disaster and preparedness grants 5 ; $7 billion of this
amount remained unexpended as of January 2008.

There is a significant risk that grantees who are still acquiring interoperable
communications equipment in FY 2010 will not be able to deploy it by the September 30,
2010, deadline for expending grant funds. Especially vulnerable are projects that are
expanding interoperable communications networks with antennas and communication
towers and require Federal Communications Commission (FCC) licensing before
construction can begin. For the 14 states that share the international border with
Canada, this can take a year, although other states may take only a few days, if their
environmental and technical studies are in order. FCC usually requires construction to
be complete within a year; however, extensions are not unusual if the vendor cannot
complete installation and testing within a year.

According to NTIA’s PSIC program manager, approximately 60 percent of the 56
grantees have readiness training that cannot be completed until all interoperable
communications equipment is deployed. Therefore, funds to pay for training cannot be
expended until the systems are complete. Clearly, unless grantees can accelerate the
acquisition process, many may be unable to complete their interoperable
communications improvements before the grants expire. Such an outcome would
significantly diminish the program’s effectiveness in improving local, tribal, and state
interoperable communications nationwide.

Recommendations

To assure that the benefits of the Public Safety Interoperable Communications
Grant Program are achieved, we recommend that the Assistant Secretary for
Communications and Information

    •   promptly identify those grantees who are at high risk of not meeting the
        statutory deadline for completing their projects, provide the technical
        assistance they need to accelerate the process, and carefully monitor their
        progress; and

4
  U.S. Government Accountability Office, March 11, 2008. HOMELAND SECURITY: DHS Improved its Risk-Based
Grant Programs’ Allocation and Management Methods, But Measuring Programs’ Impact on National Capabilities
Remains a Challenge, GAO-08-488T, Washington, D.C., p.16.
5
  U.S. Government Accountability Office, March 11, 2008. HOMELAND SECURITY, pp. 15-16.
                                                    5
U.S. Department of Commerce                                                      Final Report DEN-19003
Office of Inspector General                                                                  March 2009



      •   keep Congress informed of the PSIC program’s status toward achieving its
          objectives. If necessary, NTIA should work with Congress to allow NTIA to
          extend the deadline for grantees to expend the PSIC grant proceeds.

II. NTIA Is Meeting Requirements in Managing the PSIC Program

Our audit of NTIA’s management of the grant program found that the agency and
DHS met the statutory deadlines and requirements for making awards, and for
reviewing and approving grantees’ communications plans. A rigorous NTIA and
DHS/FEMA peer review process was intended to ensure investment justifications
supported feasible statewide communications interoperability plans (SCIP). We
detail the specifics of our review in the five administrative categories we focused on
below.

      A. Formula Allocations

The PSIC program used a modified DHS/FEMA risk analysis methodology 6 to
allocate the $968,385,000 among the 56 grantees. DHS has used a similar formula
since 2006 for state homeland security grants. First, the modified PSIC formula
awarded $3 million to each of the 50 states, the District of Columbia, and Puerto Rico.
The remaining four territories received a minimum of $500,000 to make meaningful
improvements to their interoperable communications capabilities. This left a balance
of $810,385,000, which was allocated to states and territories using the following risk
analysis methodology: PSIC Allocation: Risk = Threat (10 percent) x Vulnerability x
Consequence (90 percent). The PSIC allocation methodology reduced DHS’ terrorism
threat percentage from 20 percent to 10 percent since federal disasters have been
declared in all 50 states, the District of Columbia, and five U.S. territories, and
interoperable communications are used to respond to natural disasters as well as
terrorism threats. For the same reason, weights increased for vulnerability and
consequences, as shown on the next page.




6
    U.S. Government Accountability Office, March 11, 2008, HOMELAND SECURITY..
                                                    6
U.S. Department of Commerce                                                     Final Report DEN-19003
Office of Inspector General                                                                 March 2009



                                          Table 3
                     Comparison of DHS and NTIA Allocation Formula
                   DHS Percentage    Factor               NTIA Percentage
                        40        Population                   45
                        20        Economic Output              23
                        15        Critical Infrastructure      17
                         5        National Security             5
                        20        Threat                       10

                           100                                                  100

Source: FY 2007 PSIC Allocation Methodology, U.S. Department of Homeland Security


A Commerce OIG mathematician analyzed the PSIC allocations and confirmed that
they were consistently applied.

      B. Grantee Applications

Grantees were required to submit applications for PSIC funding by August 22,
2007. The PSIC Program Guidance and Application Kit required the following:

      •    A brief narrative of the process for choosing proposals, an agreement to meet
           the nonfederal match, and, if applicable, a budget for the 5 percent of funds
           available to assist with the development of statewide plans.
      •    Application for federal assistance, standard form 424.
      •    Budget information, standard form 424 A.
      •    Assurance, standard form 424 B.
      •    Assurances for construction projects, standard form 424 D.
      •    Disclosure of lobbying activities, standard form LLL.
      •    Certification regarding debarment, suspension, and other responsible
           matters.
      •    Certification for non-supplantation.

The Implementing Recommendations of the 9/11 Commission Act of 2007 7
established eligibility requirements for public safety interoperable communications
grants: the states and territories had to submit an application and an investment
justification of how the grant funds would be used to improve interoperable
communications and ensure interoperability with other public safety agencies in an
emergency or major disaster.

We examined the 56 grant applications and determined that all were filed as
required by the PSIC application guidance and the Implementing Recommendations
of the 9/11 Commission Act of 2007.

7
    Public Law 110-53, Sec. 2201 (b).
                                                   7
U.S. Department of Commerce                                     Final Report DEN-19003
Office of Inspector General                                                 March 2009



      C. Grant Awards

We examined all 56 grant documents for the award date, award amount, and grant
terms and conditions and determined that the DHS/FEMA grants officer issued the
PSIC grants for $968,385,000 to the 50 states, the District of Columbia, and five
U.S. territories on September 30, 2007, as required by the Call Home Act of 2006. 8

The Digital Television Transition and Public Safety Act of 2005, 9 which created the
program, required a 20 percent nonfederal funding match for the acquisition and
deployment of interoperable communications. Training and planning components of
interoperable communications projects did not require a match. We determined that
the grant award documents for all 56 grants contained the matching share
stipulation.

The Digital Television Transition and Public Safety Act of 2005 authorized
payments “not to exceed $1 billion.” The Call Home Act of 2006 established the
statutory deadline of September 30, 2007, for awarding grants and authorized an
amount of “not less than $1,000,000,000 for public safety interoperable
communications grants.” The 56 PSIC grants were for less than the $1 billion
authorized by the Call Home Act of 2006 but within the statutory borrowing
authority of the Digital Television Transition and Public Safety Act of 2005. The
funds not used for the 56 grants will be used for PSIC administrative expenses.
NTIA’s chief counsel stated that the Call Home Act did not limit NTIA’s ability to
expend funding for PSIC administrative costs since the provisions of the Digital
Television Transition and Public Safety Act of 2005, as amended, required the
agency to take all administrative actions necessary to establish and implement the
PSIC program. Likewise, the Call Home Act did not eliminate NTIA’s authority to
use necessary amounts from the $1 billion in funds available for the administrative
expenses of the program.

Overall, NTIA and the FEMA grants office issued the 56 public safety interoperable
communications grants in compliance with the statutory requirements of the
Digital Television Transition and Public Safety Act of 2005 and the Call Home Act
of 2006.

      D. Statewide Communications Interoperability Plans

The Department of Homeland Security reviews and approves the statewide
communications interoperability plans. These plans are to address locally driven
interoperable communications capabilities among local and tribal entities and
authorized nongovernment organizations. The development and adoption of a
statewide plan is required by the 2006 DHS Homeland Security Grant Program

8
    Public Law 109-459, Sec. 4.
9
    Public Law 109-171, Sec. 3006.
                                         8
U.S. Department of Commerce                                                        Final Report DEN-19003
Office of Inspector General                                                                    March 2009


Guidance and Application Kit. DHS conducted peer reviews of the 56 statewide
plans and approved them in March and April 2008 (table 4).

                                Table 4
                DHS Review of Statewide Communications
                          Interoperability Plans

                                                Notification
                                                to NTIA of              Number
                        Review                  Approval                Approved

                        First                   March 18                      47
                        Second                  March 27                       2
                        Third                   April 14                       5
                        Fourth                  April 18                       2
                        Total                                                 56
Source: Letters dated March 18 and 27, and April 14 and 18, 2008, from DHS Office of Emergency Management


The PSIC grant program leveraged the requirement for states to develop, adopt,
and submit Statewide Plans to DHS by December 3, 2007, by requiring grantees to
submit their investment justifications on the same date, so that DHS and NTIA
reviews could be conducted concurrently.

    E. Investment Justifications

PSIC grants awarded on September 30, 2007, contained the following special
condition:

        “The recipient may only fund investments that are included in the PSIC
        Investment Justifications approved by the National Telecommunications and
        Information Administration, Department of Commerce, and supported by the
        Statewide Communications Interoperability Plans (SCIP) that are submitted
        to DHS and evaluated through the peer review process.”

The 56 grantees were required to submit an investment justification with up to 10
interoperable communication investments each. NTIA and FEMA conducted a joint
peer review of these in February and March 2008. More than 100 public sector
employees, including federal, state, local, and tribal representatives with expertise
and experience in emergency operations, interoperable communications, public
safety operations, or grants management participated in the SCIP and PSIC
investment review process. On April 3, 2008, states were notified of the initial
results (table 5). Afterwards, states and territories had opportunities to address
concerns and resubmit investment justifications or investments for further
consideration.


                                                   9
U.S. Department of Commerce                                                          Final Report DEN-19003
Office of Inspector General                                                                      March 2009



                                      Table 5
                     NTIA and DHS/FEMA Investment Justification
                            Peer Review and Evaluations


                                                                                           Value of
                                            States           States                        Approved
                                            Fully           Partially          Number of Investments
Review                    Date             Approved         Approved           Investments (Millions)d

First                     April 3               14                   6a             113      $467
Second                    April 18              01                   3a              20        58
Third                     May 22                12                   0               47b       63
Fourth                    June 30               12                   1a              57b,c    135
Fifth                     July 24                4                   0               19c       85
Sixth                     July 25                3                   0               10        27
Seventh                   September 2            5                   0               15c       41
Subtotal                                        51                   0              281b,c   $876d
                                           Unapproved
 Pending                                         5                                   13
Total                                           56                                   294

aTen partially approved investment justifications were later fully approved.
bFivestates deleted eight investments from their justifications.
cFour states added ten investments to their justifications.
dDoes not include funding for management, administration, or planning.



Source: NTIA and DHS/FEMA Investment Justification Approvals


As of September 30, 2008, NTIA and DHS/FEMA had approved 51 of 56 (91 percent)
investment justifications and 281 of 294 (approximately 95 percent) of the individual
investments contained within them, representing $876 million in interoperable
communications improvements. The remaining 5 states provided additional
information for their investment justifications and received approval on October 15,
2008; December 29, 2008 (2 approvals); January 15, 2009; and February 17, 2009.

This rigorous NTIA and DHS/FEMA peer review process was intended to ensure
investment justifications supported feasible statewide communications interoperability
plans. The process resulted in substantially higher quality investment strategies than
were reported by GAO in a 2007 10 review of DHS interoperable communications grants
made from 2003-2005. GAO reported:



10
 U.S. Government Accountability Office, April 2007. First Responders: Much Work Remains to Improve
Communications Interoperability, GAO-07-301, Washington, D.C. 16, 44.
                                                      10
U.S. Department of Commerce                                      Final Report DEN-19003
Office of Inspector General                                                  March 2009


   •   None of the states it reviewed had used strategic planning to guide
       investments and improve communications interoperability,
   •   Not all states had plans in place to guide their investments toward long-term
       interoperability gains.
   •   No process had been established for ensuring that states’ grant requests were
       consistent with their statewide plans.




                                         11
U.S. Department of Commerce                                         Final Report DEN-19003
Office of Inspector General                                                     March 2009



                              Summary of Agency Responses

                 (See appendix B for the full text of agency responses.)


NTIA

In response to our finding that PSIC grantees may be unable to finish their projects
within the mandated deadline, NTIA reported that it is working closely with FEMA
to identify the projects most at risk for not meeting statutory and program
requirements, and has set aside administrative funds for technical assistance to
help grantees, among other things, define technical specifications, optimize and
integrate systems, conduct acceptance testing, establish standard operating
procedures, and conduct training.

With regard to our recommendation for keeping Congress apprised of the program’s
status and seeking to extend the deadline if necessary, NTIA responded that it will
periodically update Congress regarding the status of grantees’ projects and
expenditure of funds in an effort to track which grantees cannot meet the
September 30, 2010, deadline.

We note that our financial and performance audits of individual PSIC grantees
should aid NTIA’s tracking efforts. And we reiterate the importance of seeking a
deadline extension pending NTIA’s continuing assessment of grantees’ progress.

DHS/FEMA

The DHS/FEMA Grants Office agreed with our recommendation that NTIA identify
grantees at high risk of not completing their projects on time, and described the
expanded technical and other assistance it is developing with NTIA to supplement
existing monitoring and technical assistance activities.




                                           12
U.S. Department of Commerce                                      Final Report DEN-19003
Office of Inspector General                                                  March 2009


                      Appendix A: Objectives, Scope, and Methodology

The objectives of our review were to assess NTIA’s management of the Public Safety
Interoperable Communications grant program and report our findings to the Senate
Committee on Commerce, Science and Transportation and the House Committee on
Energy and Commerce, as required by the Implementing Recommendations of the
9/11 Commission Act. This report details our first assessment of NTIA’s
management of the program for the year ended September 30, 2008.

To meet our objectives, we focused on the following grant administration activities:
formula allocations, grant awards, statewide communications interoperability
plans, and grantees’ applications and investment justifications. We coordinated our
assessment and met periodically with officials of the DHS Office of Inspector
General.

To gain an understanding of the DHS formula allocation for grants to states, we met
with DHS officials and with GAO staff. We also reviewed related GAO testimony,
HOMELAND SECURITY: DHS Improved its Risk-Based Grant Programs’ Allocation
and Management Methods, But Measuring Programs’ Impact on National Capabilities
Remains a Challenge, GAO-08-488T.

To determine the consistency of the formula allocation used to make NTIA Public
Safety Interoperable Communications grants to states, we reviewed source documents
at the DHS Office of Emergency Management. A Commerce OIG staff mathematician
replicated calculations for the formula allocation and determined that the formula was
consistently applied.

To determine if NTIA PSIC applications were timely filed and grants awards were
made by the statutory deadline, we reviewed grant applications and grant award
documents from the FEMA Grants Office against the statutory requirements of the
Digital Television Transition and Public Safety Act of 2005, the Call Home Act of 2006
and Implementing Recommendations of the 9/11 Commission Act of 2007. To
determine the amounts of cash drawn down by grantees, we analyzed cash drawdown
reports provided by DHS Office of Policy and Program Analysis.

To determine whether statewide communications interoperability plans and
investment justifications were reviewed by DHS and NTIA, we obtained and
reviewed copies of the documents, but we limited our analysis of the plans to
determining whether DHS had approved them before approving the states’
investment justifications and releasing funding. Our review of the states’
investment justifications included analysis of the investment justification
documents, the individual investments, and NTIA and DHS decision documents to
verify that the justifications had been approved.



                                          13
U.S. Department of Commerce                                      Final Report DEN-19003
Office of Inspector General                                                  March 2009


To gain a better understanding of interoperable communications and to follow up on
prior audit recommendations, we met with GAO staff and reviewed their report on
interoperable communications, First Responders: Much Work Remains to Improve
Communications Interoperability, GAO-07-301.

To assess grantees’ progress in interoperable communications, we contacted 23
grantees. We received responses from 19 of the 20 grantees receiving the largest
grants and 3 others that had large cash drawdowns.

We assessed the validity and reliability of computer-processed data supplied by
NTIA and the FEMA Grants Office by directly testing the data against supporting
documentation. Based on our tests, we concluded that the computerized data was
reliable for use in meeting our objectives.

The Implementing Recommendations of the 9/11 Commission Act of 2007 requires
the Commerce Inspector General to conduct financial audits, over 4 years, of a
representative sample of at least 25 interoperable communications grantees.
Because the majority of grant funds were not released until April 3, 2008, we did
not conduct any grantee financial audits in fiscal year 2008. We have notified state
auditors and state agencies receiving the interoperable communications grants that
we began our financial audits in October 2008. We plan to conduct four or more
financial audits semiannually for the next 2 years.

We conducted this audit in accordance with generally accepted government auditing
standards and under the authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We performed our fieldwork
from October 2007 to September 2008 in Washington, D.C., at NTIA headquarters, the
DHS FEMA Grants Office, and the DHS Office of Emergency Management.




                                         14
U.S. Department of Commerce                                 Final Report DEN-19003
Office of Inspector General                                             March 2009



                              Appendix B: Agency Response




                                         15
U.S. Department of Commerce        Final Report DEN-19003
Office of Inspector General                    March 2009




                              16
U.S. Department of Commerce        Final Report DEN-19003
Office of Inspector General                    March 2009




                              17
U.S. Department of Commerce        Final Report DEN-19003
Office of Inspector General                    March 2009




                              18
U.S. Department of Commerce        Final Report DEN-19003
Office of Inspector General                    March 2009




                              19
U.S. Department of Commerce                                         Final Report DEN-19003
Office of Inspector General                                                     March 2009


                              Appendix C: NTIA PSIC Chronology

February 8, 2006      Public Law 109-171
                      Digital Television Transition and Public Safety Act of 2005
                         • Creates NTIA PSIC Program
                            with $1 billion in borrowing authority.
                         • Requires 20 percent match for grants.

December 22, 2006 Public Law 109-459
                  Call Home Act of 2006
                     • Requires NTIA PSIC grants be issued by
                        September 30, 2007.

April 2007            Government Accountability Office Report: GAO-07-301
                      First Responders: Much Work Remains to Improve
                      Communications Interoperability

July 18, 2007         Commerce Secretary Gutierrez and Homeland Security
                      Secretary Chertoff announce nearly $1 billion in grants for first
                      responder communications for all 50 states, the District of
                      Columbia, and five U.S. territories.

July 23, 2007         NTIA published a Notice of Availability of Funds in the Federal
                      Register, 72 Fed. Reg. 40120, for the Public Safety Interoperable
                      Communications (PSIC) Grant Program.

August 3, 2007        Public Law 110-53
                      Implementing Recommendations of the 9/11 Commission Act of
                      2007
                         • Requires an NTIA PSIC application.
                         • Establishes $75 million for Strategic Technology Reserve.
                         • Requires Commerce Inspector General annual assessment
                            of NTIA PSIC grant management and 25 audits before
                            the end of fiscal year 2011.

August 20, 2007       NTIA published an Amendment to Notice of Availability of
                      Funds in the Federal Register, 72 Fed. Reg. 46442.

August 22, 2007       Grant applications due for NTIA PSIC grants.

September 30, 2007            FEMA Grants Office issues 56 NTIA PSIC grants.

December 3, 2007 Statewide Communications Interoperability Plan and NTIA
                 PSIC investment justifications due.


                                            20
U.S. Department of Commerce                                        Final Report DEN-19003
Office of Inspector General                                                    March 2009


Feb. 11-15, 2008      Investment justifications and individual investments are
                      evaluated by a panel of peer reviewers.

March 11, 2008        Government Accountability Office Testimony: GAO-08-488T
                      Homeland Security: DHS Improved Its Risk-Based Grant
                      Programs’ Allocation and Management Methods, But Measuring
                      Programs’ Impact on National Capabilities Remains a Challenge

March 18, 2008        NTIA was notified that 1st review of Statewide Communication
                      Interoperability Plans had been approved.

March 27, 2008        NTIA was notified that 2nd review of Statewide Communication
                      Interoperability Plans had been approved.

April 3, 2008         1st review of approved and partially approved investment
                      justifications completed.

April 14, 2008        NTIA is notified that 3rd review of Statewide Communication
                      Interoperability Plans had been approved.

April 18, 2008        2nd review of approved and partially approved investment
                      justifications completed.

April 18, 2008        NTIA was notified that 4th and final review of Statewide
                      Communication Interoperability Plans had been approved.

May 22, 2008          3rd review of approved and partially approved investment
                      justifications completed.

June 25, 2008         4th review of approved and partially approved investment
                      justifications completed.

July 24, 2008         5th review of approved investment justifications completed.

July 25, 2008         6th review of approved investment justifications completed.

Sept. 2, 2008         7th review of approved and partially approved investment
                      justifications completed.

September 30, 2008            Fiscal Year 2008 NTIA PSIC Reporting Period Ends.

September 30, 2009            Fiscal Year 2009 NTIA PSIC Reporting Period Ends.

September 30, 2010            Fiscal Year 2010 NTIA PSIC Reporting Period Ends and
                              the NTIA PSIC grants expire.

                                            21
U.S. Department of Commerce                                        Final Report DEN-19003
Office of Inspector General                                                    March 2009


September 30, 2011            Fiscal Year 2011 NTIA PSIC Reporting Period Ends.

September 30, 2011            Commerce Inspector General specific statutory requirement
                              expires.




                                            22
U.S. Department of Commerce                                                   Final Report DEN-19003
Office of Inspector General                                                               March 2009


                                Appendix D: NTIA PSIC Statutes

A.     Digital Television Transition and Public Safety Act of 2005
       Public Law 109-171 Sec. 3006                               February 8, 2006

SEC. 3006. PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS.

(a) CREATION OF PROGRAM.—The Assistant Secretary, in consultation with the Secretary of the
Department of Homeland Security—
(1) may take such administrative action as is necessary to establish and implement a grant program
to assist public safety agencies in the acquisition of, deployment of, or training for the use of
interoperable communications systems that utilize, or enable interoperability with communications
systems that can utilize, reallocated public safety spectrum for radio communication; and
(2) shall make payments of not to exceed $1,000,000,000, in the aggregate, through fiscal year 2010
to carry out that program from the Digital Television Transition and Public Safety Fund established
under section 309(j)(8)(E) of the Communications Act of 1934 (47 U.S.C. 309(j)(8)(E)).

(b) CREDIT.—The Assistant Secretary may borrow from the Treasury beginning on October 1, 2006,
such sums as may be necessary, but not to exceed $1,000,000,000, to implement this section. The
Assistant Secretary shall reimburse the Treasury, without interest, as funds are deposited into the
Digital Television Transition and Public Safety Fund.

(c) CONDITION OF GRANTS.—In order to obtain a grant under the grant program, a public safety agency
shall agree to provide, from non-Federal sources, not less than 20 percent of the costs of acquiring
and deploying the interoperable communications systems funded under the grant program.

(d) DEFINITIONS.—For purposes of this section:
(1) PUBLIC SAFETY AGENCY.—The term ‘‘public safety agency’’ means any State, local, or tribal
government entity, or nongovernmental organization authorized by such entity, whose sole or
principal purpose is to protect the safety of life, health, or property.
(2) INTEROPERABLE COMMUNICATIONS SYSTEMS.—The term ‘‘interoperable communications systems’’
means communications systems which enable public safety agencies to share information amongst
local, State, Federal, and tribal public safety agencies in the same area via voice or data signals.
(3) REALLOCATED PUBLIC SAFETY SPECTRUM.—The term ‘‘reallocated public safety spectrum’’ means the
bands of spectrum located at 764–776 megahertz and 794–806 megahertz, inclusive.



B.     Call Home Act of 2006
       Public Law 109-459, Sec. 4                                            December 22, 2006

SEC. 4. PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS GRANTS.
Pursuant to section 3006 of Public Law 109–171 (47 U.S.C. 309 note), the Assistant Secretary for
Communications and Information of the Department of Commerce, in consultation with the
Secretary of the Department of Homeland Security, shall award no less than $1,000,000,000 for
public safety interoperable communications grants no later than September 30, 2007 subject to the
receipt of qualified applications as determined by the Assistant Secretary.




                                                 23
U.S. Department of Commerce                                                     Final Report DEN-19003
Office of Inspector General                                                                 March 2009


C.    Implementing Recommendations of the 9/11 Commission Act of 2007,
Sec.2201
      Public Law 110–53—121 STAT. 537                         August 3, 2007

TITLE XXII—INTEROPERABLE EMERGENCY COMMUNICATIONS
SEC. 2201. INTEROPERABLE EMERGENCY COMMUNICATIONS.

(a) IN GENERAL.—Section 3006 of Public Law 109–171 (47 U.S.C. 309 note) is amended—
(1) by striking paragraphs (1) and (2) of subsection (a) and inserting the following:
‘‘(1) may take such administrative action as is necessary to establish and implement—
‘‘(A) a grant program to assist public safety agencies in the planning and coordination associated
with, the acquisition of, deployment of, or training for the use of interoperable communications
equipment, software and systems that—
‘‘(i) utilize reallocated public safety spectrum for radio communication;
‘‘(ii) enable interoperability with communications systems that can utilize reallocated public safety
spectrum for radio communication; or
‘‘(iii) otherwise improve or advance the interoperability of public safety communications systems that
utilize other public safety spectrum bands; and
‘‘(B) are used to establish and implement a strategic technology reserve to pre-position or secure
interoperable communications in advance for immediate deployment in an emergency or major
disaster;
‘‘(2) shall make payments of not to exceed $1,000,000,000, in the aggregate, through fiscal year 2010
from the Digital Television Transition and Public Safety Fund established under section 309(j)(8)(E)
of the Communications Act of 1934 (47 U.S.C. 309(j)(8)(E)) to carry out the grant program
established under paragraph (1), of which at least $75,000,000, in the aggregate, shall be used for
purposes described in paragraph (1)(B); and
‘‘(3) shall permit any funds allocated for use under paragraph (1)(B) to be used for purposes
identified under paragraph (1)(A), if the public safety agency demonstrates that it has already
implemented such a strategic technology reserve or demonstrates higher priority public safety
communications needs.’’;
(2) by redesignating subsections (b), (c), and (d) as subsections (h), (i), and (j), respectively, and
inserting after subsection (a) the following:

‘‘(b) ELIGIBILITY.—To be eligible for assistance under the grant program established under
subparagraph (a)(1)(A), an applicant shall submit an application, at such time, in such form, and
containing such information as the Assistant Secretary may require, including a detailed
explanation of how assistance received under the program would be used to improve communications
interoperability and ensure interoperability with other public safety agencies in an emergency or a
major disaster.

‘‘(c) CRITERIA FOR STRATEGIC TECHNOLOGY RESERVES.—
‘‘(1) IN GENERAL.—In evaluating permitted uses under subparagraph (a)(1)(B), the Assistant
Secretary shall consider the continuing technological evolution of communications technologies and
devices, with its implicit risk of obsolescence, and shall ensure, to the maximum extent feasible, that
a substantial part of the reserve involves prenegotiated contracts and other arrangements for rapid
deployment of equipment, supplies, and systems (and communications service related to such
equipment, supplies, and systems), rather than the warehousing or storage of equipment and
supplies currently available at the time the reserve is established.
‘‘(2) REQUIREMENTS AND CHARACTERISTICS.—Funds provided to meet uses described in paragraph (1)
shall be used in support of reserves that—
‘‘(A) are capable of re-establishing communications when existing critical infrastructure is damaged
or destroyed in an emergency or a major disaster;


                                                  24
U.S. Department of Commerce                                                   Final Report DEN-19003
Office of Inspector General                                                               March 2009


C.    Implementing Recommendations of the 9/11 Commission Act of 2007,
Sec.2201 (Continuation from the previous page.)

‘‘(B) include appropriate current, widely-used equipment, such as Land Mobile Radio Systems,
cellular telephones and satellite-enabled equipment (and related communications service), Cells-On-
Wheels, Cells-On-Light-Trucks, or other self-contained mobile cell sites that can be towed, backup
batteries, generators, fuel, and computers;
‘‘(C) include equipment on hand for the Governor of each State, key emergency response officials, and
appropriate State or local personnel;
‘‘(D) include contracts (including prenegotiated contracts) for rapid delivery of the most current
technology available from commercial sources; and
‘‘(E) include arrangements for training to ensure that personnel are familiar with the operation of
the equipment and devices to be delivered pursuant to such contracts.
‘‘(3) ADDITIONAL CHARACTERISTICS.—Portions of the reserve may be virtual and may include items
donated on an in-kind contribution basis.
‘‘(4) ALLOCATION OF FUNDS.—In evaluating permitted uses under subparagraph (a)(1)(B), the
Assistant Secretary shall take into account barriers to immediate deployment, including time and
distance, that may slow the rapid deployment of equipment, supplies, and systems (and
communications service related to such equipment, supplies, and systems) in the event of an
emergency in any State.

‘‘(d) VOLUNTARY CONSENSUS STANDARDS.—In carrying out this section, the Assistant Secretary, in
cooperation with the Secretary of Homeland Security, shall identify and, if necessary, encourage
the development and implementation of, voluntary consensus standards for interoperable
communications systems to the greatest extent practicable, but shall not require any such standard.

‘‘(e) INSPECTOR GENERAL REPORT AND AUDITS.—
‘‘(1) REPORT.—Beginning with the first fiscal year beginning after the date of enactment of the
Implementing Recommendations of the 9/11 Commission Act of 2007, the Inspector General
of the Department of Commerce shall conduct an annual assessment of the management of the grant
program implemented under subsection (a)(1) and transmit a report containing the findings of that
assessment and any recommendations related thereto to the Senate Committee on Commerce,
Science, and Transportation and the House of Representatives Committee on Energy and Commerce.
‘‘(2) AUDITS.—Beginning with the first fiscal year beginning after the date of enactment of the
Implementing Recommendations of the 9/11 Commission Act of 2007, the Inspector General
of the Department of Commerce shall conduct financial audits of entities receiving grants from the
program implemented under subsection (a)(1), and shall ensure that, over the course of 4 years, such
audits cover recipients in a representative sample of not fewer than 25 States or territories. The
results of any such audits shall be made publicly available via web site, subject to redaction as the
Inspector General determines necessary to protect classified and other sensitive information.

‘‘(f) RULE OF CONSTRUCTION.—Nothing in this section shall be construed or interpreted to preclude the
use of funds under this section by any public safety agency for interim- or long-term Internet
Protocol-based interoperable solutions.’’; and (3) by striking paragraph (3) of subsection (j), as so
redesignated.




                                                 25
